U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 28, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Salvador Acosta v. United States of America,
S.Ct. No. 21-5016
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 1, 2021,
and placed on the docket on July 6, 2021. The government’s response is due on August 5, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 6, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

21-5016
ACOSTA, SALVADOR
USA

BENJAMIN LEE COLEMAN
COLEMAN & BALOGH LLP
1350 COLUMBIA STREET
SUITE 600
SAN DIEGO, CA 92101
619-794-0420
BLC@COLEMANBALOGH.COM

